               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




      Shortpaid Postage – Information-
          Based Indicia Packages,
               Southern Area

                       Audit Report




                                         September 17, 2013

Report Number MS-AR-13-011
                                                                    September 17, 2013

                                             Shortpaid Postage – Information-Based
                                                   Indicia Packages, Southern Area

                                                        Report Number MS-AR-13-011



BACKGROUND:
The U.S. Postal Service offers several       effective. We identified a systemic
forms of postage payment, including          pattern of shortpaid postage in the
stamps, postage meters, and                  districts we visited, involving both small
Information-Based Indicia (IBI). IBI is      and large mailers. Shortpaid postage
postage that appears in a digital format     amounts on individual IBI packages
on the mailpiece and is purchased using      ranged from 8 cents to $290.
a computer or an Automated Postal
Center. The Postal Service has various
processes in place to verify that the
appropriate postage has been paid
using one of the payment methods.                          the Southern Area does not
However, mailpieces are sometimes            have a comprehensive strategy for
accepted, processed, and delivered           identifying and reducing shortpaid
without sufficient postage (shortpaid        postage. We believe implementing such
postage).                                    a strategy could mitigate shortpaid
                                             postage on IBI packages, which we
The Postal Service estimated about           estimate to be about $41 million in
              in shortpaid postage loss      FY 2012 including IBI packages with
nationwide in fiscal year (FY) 2012 for      hidden postage. If the Southern Area
mailpieces with visible postage. IBI         implemented this strategy, it would also
package shortpaid postage accounts for       positively affect non-IBI shortpaid
$70 million of the              and is the   packages estimated to be an additional
largest area of revenue loss. About $49      $12 million in FY 2012.
million of the              was attributed
to losses in the Southern Area, of which     WHAT THE OIG RECOMMENDED:
about $14 million was attributed to IBI      We recommended the Southern Area
package shortpaid postage.                   develop a strategy to identify and
                                             reduce shortpaid postage on IBI
Our objective was to determine whether       packages. The strategy could include
the processes for preventing and             items such as establishing goals, roles,
detecting IBI package shortpaid postage      and responsibilities for identifying
in the Southern Area are effective.          shortpaid postage, assigning and
                                             training personnel to identify shortpaid
WHAT THE OIG FOUND:                          postage, and enhanced coordination
The Southern Area’s processes for            with the Postal Inspection Service.
preventing and detecting shortpaid
postage on IBI packages were not             Link to review the entire report
September 17, 2013

MEMORANDUM FOR:            JO ANN FEINDT
                           VICE PRESIDENT, SOUTHERN AREA




FROM:                      Darrell E. Benjamin, Jr.
                           Deputy Assistant Inspector General
                            for Revenue and Performance

SUBJECT:                   Audit Report – Shortpaid Postage - Information-Based
                           Indicia Packages, Southern Area
                           (Report Number MS-AR-13-011)

This report presents the results of our audit of Information-Based Indicia shortpaid
postage prevention and detection processes in the Southern Area (Project Number
13RG006MS000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Janet Sorensen, director, Sales
and Marketing, or me at 703-248-2100.

Attachment

cc: Corporate Audit and Response Management
Shortpaid Postage – Information-Based Indicia                                                                      MS-AR-13-011
 Packages, Southern Area



                                               TABLE OF CONTENTS

Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 3

Shortpaid Postage Identification ...................................................................................... 3

Recommendation ............................................................................................................ 6

Management’s Comments .............................................................................................. 6

Evaluation of Management’s Comments ......................................................................... 6

Appendix A: Additional Information ................................................................................. 7

   Background ................................................................................................................. 7

   Objective, Scope, and Methodology ............................................................................ 9

   Prior Audit Coverage ................................................................................................. 10

Appendix B: Other Impact ............................................................................................. 11

Appendix C: Management's Comments ........................................................................ 12
Shortpaid Postage – Information-Based Indicia                                                            MS-AR-13-011
 Packages, Southern Area




Introduction

This report presents the results of our audit of Information-Based Indicia (IBI) package
shortpaid postage prevention and detection processes in the Southern Area (Project
Number 13RG006MS000). Our objective was to determine whether the processes for
preventing and detecting IBI package shortpaid postage in the Southern Area are
effective. This audit is self-initiated. See Appendix A for additional information about this
audit.

U.S. Postal Service customers are required to purchase postage for their mailings,
which is affixed to the mailpiece. This affixed postage provides evidence of payment to
Postal Service employees. Customers can purchase postage at different locations
including Postal Service retail locations and contract postal units. Customers can also
purchase and print online postage from any computer. This type of postage, known as
IBI, is digital and includes human readable information and a Postal Service approved
two-dimensional barcode or other Postal Service-approved symbology with a digital
signature and other required data fields. IBI postage has an added feature where
customers can choose whether or not to display the value of the postage on the label.
When the value is not displayed, it is considered hidden postage.1 According to
revenue, pieces, and weight (RPW) data, this type of postage comprised 60 percent of
all IBI postage in fiscal year (FY) 2012 in Southern Area. Because IBI is convenient to
obtain and increases the efficiency of the mailer, IBI postage use is growing.2 Once IBI
is printed in a home or business office, carrier pick-up of packages makes this a
convenient option to residential and business customers alike. See Appendix A for a list
of the types of affixed postage.

While the Postal Service has various processes in place to verify these different
postage payment methods, mailpieces are sometimes accepted, processed, and
delivered with insufficient
                              Mail which has not been adequately paid for is considered
shortpaid. All types of mail experience some level of shortpaid postage, and this
results in a revenue deficiency for the Postal Service. Postal Service data indicated
that               of revenue was lost in FY 2012 due to shortpaid postage. The
largest percentage of this shortpaid revenue was attributed to IBI package postage
(nearly $70 million in FY 2012). The Southern Area accounted for about $49 million, or
   percent, of total nationwide shortpaid revenue loss during this same period. IBI


1
  Hidden also referred to as stealth postage, allows mailers to pay postage and affix a label without disclosing the
amount of postage paid to the receiver. The actual postage amount (in dollars or cents) is not visible.

2
  From FYs 2011 to 2012, PC postage volume grew by about 43 million pieces (28 percent) and revenue grew by
about $142 million (27 percent) in the Southern Area.
3
  This figure does not include shortpaid revenue loss from mailpieces with hidden postage.
                                                           1
Shortpaid Postage – Information-Based Indicia                                   MS-AR-13-011
 Packages, Southern Area


Packages shipped in the Southern Area4 accounted for about $14 million, representing
about 5 percent of total nationwide shortpaid revenue loss, and 21 percent of
nationwide IBI package shortpaid revenue loss during FY 2012. See Figure 1.




IBI postage provides increased convenience and efficiency to residential and business
mailers; however, the amount of shortpaid postage in FY 2012 (particularly in the
Southern Area) results in a sizeable revenue risk to the Postal Service. This risk is likely
to increase considering that IBI postage use continues to grow nationwide and



The Postal Service is utilizing several automated tools to enhance its strategy for
detecting shortpaid postage. Specifically, Automated Package Processing System
(APPS) machines,                                                    have the capability to
examine the dimension, weight, and postage on an IBI package and determine whether
it potentially has shortpaid postage. In addition, the Postal Service is in the process of
deploying Passive Adaptive Scanning Systems (PASS) machines




4
    RPW estimate is based on originating ZIP Code.
5
    Hidden (stealth IBI) postage is not included in these figures.


                                                              2
Shortpaid Postage – Information-Based Indicia                                MS-AR-13-011
 Packages, Southern Area




Conclusion

The Southern Area’s processes for detecting IBI package shortpaid postage were not
effective. We identified a systemic pattern of shortpaid IBI packages in the districts we
visited, involving both small and large mailers. Shortpaid postage amounts on individual
packages ranged from 8 cents to $290.
                                                                    the Southern Area
does not have a comprehensive strategy for identifying and reducing shortpaid postage.
We believe implementing such a strategy could mitigate the risk of shortpaid postage on
IBI packages, which we estimate to be about $41 million in the Southern Area for
FY 2012. If the Southern Area implemented this strategy, it would also positively affect
non-IBI shortpaid packages estimated to be an additional $12 million in FY 2012. See
Appendix B for our calculation of other impact.

Shortpaid Postage Identification

The processes for detecting shortpaid IBI postage were not effective. Specifically,
during our random testing in the Suncoast District, we identified
       of the IBI packages we tested were shortpaid by an average of $1.28 per piece.
These test results are representative of the figures found in the Postal Service’s
FY 2012 RPW shortpaid postage data for IBI packages. See Table 1 for a comparison.




                                                3
Shortpaid Postage – Information-Based Indicia                                                        MS-AR-13-011
 Packages, Southern Area



                        Table 1. IBI Package Shortpaid Test Results
                                   Compared to RPW Data
                                         OIG Test     FY 2012 RPW Data
                                         Suncoast   Southern
                 Postage Insufficiency    District     Area      National

                 Shortpaid Per Piece                      $1.28            $1.25             $1.13
                   Source: U.S. Postal Service Office of Inspector General (OIG) test results and RPW data.

In the Houston District, we judgmentally tested        packages at two processing
plants and determined that      of them were shortpaid by an average of
       See Figure 2 for the breakdown of shortpaid test mailpieces by the range of
amount shortpaid.




                     The Postal Service also has not developed national guidance that
clearly defines an area’s roles and responsibilities for identifying shortpaid postage that
does not enter through the retail channel. Instead, existing guidance simply directs that
all Postal Service employees are responsible for preventing the loss of revenue by
identifying and collecting short or unpaid postage and fees.8


8
    Handbook PO-209, Retail Operations, October 2012, Section 4-1, Revenue Protection and Assurance.


                                                          4
Shortpaid Postage – Information-Based Indicia                                    MS-AR-13-011
 Packages, Southern Area



                    the Southern Area could benefit from a comprehensive strategy to
detect shortpaid postage. Such a strategy could include:

   Establishing an area wide threshold identifying an acceptable level of shortpaid
    postage. The Southern Area currently does not have such a goal. Without specific
    goals, it is impossible to determine whether shortpaid detection efforts are having a
    positive effect. As a result, the opportunity to reduce the risk of lost revenue is
    diminished and the amount of postage due collected is substantially reduced. For
    reference,                                 has a goal of collecting 100 percent of
    postage required. To reach                            automation process for its
    identification and collection of shortpaid mail, similar to that of the Postal Service.
                             have no limitation on weight or size, and process about
    90 percent of their total package volume. Manual verification is performed by
    employees on the remaining 10 percent.

   Establishing specific roles and responsibilities for its employees and management in
    the identification of shortpaid mailpieces. We found that there are few specifically
    defined roles or responsibilities that outline key duties for preventing and detecting
    shortpaid postage, particularly in the processing plants. An opportunity exists for the
    Southern Area to assign revenue protection duties and responsibilities to mail
    processing clerks which could potentially mitigate revenue lost on IBI packages with
    shortpaid postage

   Increased training and awareness for employees of existing manual revenue
    protection procedures.

              Given this, Postal Service has an opportunity to provide more training at
    regular intervals for its area employees.

   Expanded coordination with Postal Inspection Service.




                                                5
Shortpaid Postage – Information-Based Indicia                               MS-AR-13-011
 Packages, Southern Area



Recommendation

We recommend the vice president of the Southern Area:

1. Develop a strategy to identify shortpaid packages, which could include establishing
   goals, roles, and responsibilities for identifying shortpaid postage, assigning and
   training personnel to identify shortpaid postage, and enhanced coordination with the
   Postal Inspection Service.

Management’s Comments

Management agreed with our finding and recommendation, and will implement
additional training for employees to enhance the identification of shortpaid postage.
Also, management plans to use best practices to identify patterns of shortpaid postage
and address leakage. The targeted implementation date for these actions is
November 13, 2013. Management did not dispute the other impact associated with
shortpaid postage. See Appendix C for management’s comments, in their entirety.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendation and
corrective actions should resolve the issues identified in the report.




                                                6
Shortpaid Postage – Information-Based Indicia                                                  MS-AR-13-011
 Packages, Southern Area


                              Appendix A: Additional Information

Background

Affixed postage provides evidence to Postal Service employees that postage fees have
been paid and the mailpiece can be processed and delivered.

                                  Table 2. Types of Affixed Postage
            Indicia                                                   Description
Stamps                             A stamp can be an ordinary stamp, a precanceled stamp, or an official
                                   stamp.
Meter                              Metered indicia bear an impression denoting payment of postage. The
                                   impression is imprinted by a meter stamp device directly onto the
                                   mailpiece or on a meter strip affixed to the mailpiece.
Postal Validation Imprint (PVI)    PVI is a meter strip with the postage paid, the origin ZIP Code, the date
                                   of mailing, and the 5-digit destination ZIP Code.
Permit Imprint                     Permit Indicia contain the words Permit No. and the mail class of the
                                   mailpiece.
IBI                                IBI is digital indicia that includes human readable information and a
                                   Postal Service approved two-dimensional barcode or other Postal
                                   Service-approved symbology with a digital signature and other required
                                   data fields.

                                   PC Postage® products and services are the products that print an IBI as
                                   the postage mark. PC Postage is an application of secure technology
                                   (Postal Security Device) that allows customers to purchase and print
                                   postage using personal computers.


                                                                                          IBI
                                                                                 Two-Dimensional Barcode




Sources: Handbook F-75, Data Collection User's Guide for Revenue, Volume, and Performance Measurement
System, and Postal Bulletin 22218, October 25, 2007.




                                                      7
Shortpaid Postage – Information-Based Indicia                                                MS-AR-13-011
 Packages, Southern Area


One of the risks associated with affixed postage is shortpaid mail. The RPW system
continues to be the primary source of data regarding the magnitude of shortpaid
postage in the Postal Service. The RPW is the primary probability sampling system that
estimates revenue, volume, and weight. The Postal Service uses data from statistical
tests to develop new rates, assist in budget preparation, conduct management studies,
and support management decisions concerning mail flow. The RPW statistical tests
require data collectors to statistically select mailpieces and record various mailpiece
characteristics, such as revenue, weight, shape, indicia, barcode, postmark date, origin,
and mail class. See Table 3 for selected RPW shortpaid figures.

                  Table 3. Shortpaid Revenue Loss Holds Steady While
                           Volume and Total Revenue Decline
                          Nationwide           FY 2011      FY 2012


                  Total Postal Service Revenue $ 66 billion $ 65 billion
                  Total Mail Volume            $168 billion $160 billion
                Source: RPW.

The Postal Service estimated about                 in shortpaid revenue loss nationwide
based on FY 2012 RPW data. Of the nationwide total, IBI package shortpaid postage
ranked highest among all indicia and shape combinations at about $70 million. About
$14 million was attributed to mailpieces originating in the Southern Area, which also
ranked highest among all areas, as shown in Table 4.

                 Table 4. Total IBI Package Shortpaid by Area – FY 2012
                                             Total IBI Package
                                 Area           Shortpaid
                           Southern                 $14,389,117
                           Western                   14,231,029
                           Pacific                   12,468,102
                           Northeast                  7,959,938
                           Eastern                    7,831,813
                           Capital Metro              6,520,563
                           Great Lakes                6,111,444
                           Unknown Origin               458,412
                           Total                    $69,970,417
                               Source: RPW. Note: Total may not sum due to rounding error.

RPW shortpaid data was collected by data collection technicians during statistical
testing. As mentioned above, RPW shortpaid data does not include hidden postage.
Therefore, actual shortpaid revenue loss
                        FY 2012 RPW data indicated that about     percent of IBI




                                                       8
Shortpaid Postage – Information-Based Indicia                               MS-AR-13-011
 Packages, Southern Area


postage in the Southern Area were hidden. Further, RPW data indicated hidden
postage volume increased more than 856 million 9 pieces in FY 2012. See trend in
Figure 3.

        Figure 3. Nationwide IBI Hidden Postage Volume Growth (Data in Millions)




                Source: RPW.

Objective, Scope, and Methodology

Our objective was to determine whether prevention and detection processes over IBI
package shortpaid postage in the Southern Area were effective.

We conducted this performance audit from December 2012 through September 2013 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective. We discussed our
observations and conclusions with management on August 14, 2013, and included their
comments where appropriate.

We analyzed RPW data and assessed its reliability by testing random samples. We
determined that the data were sufficiently reliable for the purposes of this report. We
conducted shortpaid testing at various judgmentally selected locations. We conducted
interviews with Postal Service employees and management at various levels. We
surveyed and collected feedback from all districts in the Southern Area. We interviewed
Postal Inspection Service and shared our test results. We
employees and management.

9
    This number may not match Figure 3 due to rounding error.


                                                          9
Shortpaid Postage – Information-Based Indicia                                 MS-AR-13-011
 Packages, Southern Area


We did not evaluate the effectiveness of the PASS program. During the conduct of this
audit, the program was not fully operational.

Prior Audit Coverage

The OIG issued one audit report related to revenue protection in the past 3 years,
Strategic Approaches to Revenue Protection (Report Number MS-AR-11-007, dated
September 30, 2011) found that the Postal Service continues to address revenue
protection through technological initiatives as well as checklists, quick service guides,
and training for clerks. However, revenue leakage will continue to occur until automated
verification procedures that use mail processing equipment and intelligent mail (IM)
technologies replace current manual processes. Preparation for fully automating the
business mail entry process will depend on broadened collaboration with processing
officials and adoption of Full-Service IM barcodes on mailpieces and containers. Basic
Service IM and non-automated mail will continue to require costly manual revenue
protection procedures until additional automated technologies are developed.
Management partially agreed with the recommendations, but disagreed with the
monetary impact.




                                                10
Shortpaid Postage – Information-Based Indicia                                                        MS-AR-13-011
 Packages, Southern Area


                                       Appendix B: Other Impact

        Recommendation                               Impact Category                           Amount
              1                                      Revenue at Risk10                       $52,283,803

RPW data indicated shortpaid revenue loss of $14,389,117 for IBI packages with visible
postage and $11,731,397 for non-IBI packages in FY 2012. Based on the same data,
we calculated11 potential shortpaid revenue loss of about $26,163,289 for IBI packages
with hidden postage. Without improvements to the Southern Area’s overall strategy to
prevent and detect IBI shortpaid packages, a total of $52,283,803 will remain at risk.
See calculation, below.

                                Revenue At Risk Calculation
               Shortpaid IBI Package with Visible Postage   $                          14,389,117
               Shortpaid IBI Package with Hidden Postage +                             26,163,289
                              Total IBI Package Shortpaid   $                          40,552,406
                               Non-IBI Package Shortpaid +                             11,731,397
                                 Total Package Shortpaid    $                          52,283,803




10
  Revenue that the Postal Service is at risk of losing.
11
  Shortpaid for hidden postage were estimated based on total volume, total shortpaid volume, total shortpaid
postage, shortpaid volume percentage, and shortage per piece of IBI packages with visible postage.


                                                         11
Shortpaid Postage – Information-Based Indicia                  MS-AR-13-011
 Packages, Southern Area


                           Appendix C: Management's Comments




                                                12
Shortpaid Postage – Information-Based Indicia        MS-AR-13-011
 Packages, Southern Area




                                                13
